      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201



March 5, 2010

TO:             Yvette Roubideaux, M.D., M.P.H.
                Director
                Indian Health Service


FROM:           /Joseph E. Vengrin/
                Deputy Inspector General for Audit Services


SUBJECT:        Audit of the Indian Health Service Fiscal Year 2005 Cost Statement for the
                Phoenix Area Office (A-09-07-00086)


The attached final report provides the results of our audit of the Indian Health Service (IHS) cost
statement for fiscal year (FY) 2005 for the Phoenix area office.

IHS’s Medicare cost statements for IHS Headquarters (Headquarters) and the area offices
identify the portion of obligations from Headquarters and the area offices that is allowable under
Medicare and allocable to IHS providers. Allowable Headquarters obligations are allocated to
each area office. These obligations, combined with the area offices’ own obligations, are then
allocated among all IHS providers. Medicare cost statements are subject to the provisions of
42 CFR part 413 and the Medicare “Provider Reimbursement Manual,” parts I and II, which
establish standards for, among other things, the allowability and allocability of costs.

IHS included $39.1 million of obligations in its FY 2005 cost statement for the Phoenix area
office. After IHS adjusted certain obligations, this amount decreased to $33.9 million. IHS
identified $8.1 million of the $33.9 million as unallowable for Medicare reimbursement. We
reviewed the remaining $25.8 million of obligations that IHS reported in the cost statement as
allocable to IHS providers.

Our objective was to determine whether the obligations reported in the FY 2005 cost statement
for the Phoenix area office were allowable under Medicare requirements.

The $25,773,354 of obligations reported in the FY 2005 cost statement for the Phoenix area
office included $65,739 for unallowable depreciation and $1,992,466 for unsupported salaries,
fringe benefits, and related obligations on which we could not express an opinion. Based on our
review of judgmentally selected obligations totaling $5,642,418 and our limited review of IHS’s
internal controls, we concluded that the remaining $23,715,149 reported in the cost statement
was allowable.

We recommend that IHS adjust its next cost statement for the Phoenix area office for $65,739 of
unallowable depreciation that was reported in the FY 2005 cost statement; review the Phoenix
Page 2 – Yvette Roubideaux, M.D., M.P.H.


area office’s cost statements before and after FY 2005 and adjust its next cost statement for
unallowable depreciation that was reported; strengthen its policies and procedures to ensure that
depreciation is not reported for items that are fully depreciated; work with the Centers for
Medicare & Medicaid Services (CMS) to determine how much of the $1,992,466 for salaries,
fringe benefits, and related obligations reported in the Phoenix area office’s FY 2005 cost
statement was allowable and adjust its next cost statement for obligations that are determined to
be unallowable; and develop and implement policies and procedures to ensure that estimates
used to allocate obligations in cost statements are supported with cost information that is current,
accurate, and in sufficient detail.

In its comments on our draft report, IHS stated that it would adjust a future cost statement to
correct for the $65,739 of unallowable costs. In its comments on the second recommendation,
IHS referred to its comments on the first recommendation. In response to the third
recommendation, IHS described improvements that it was making to the reporting of equipment
depreciation. Regarding the fourth recommendation, IHS stated that because 4 years had passed
since the period of the FY 2005 cost statement, IHS did not believe that further adjustment of the
obligations was warranted. Regarding the fifth recommendation, IHS stated that it would obtain
signed time estimates from this point forward to handle salary and benefit obligations that are
reclassified or adjusted.

In its response to our second recommendation, IHS did not agree that it would review cost
statements before and after FY 2005 to determine if it had claimed additional unallowable
depreciation costs. If IHS claimed unallowable costs, those costs should be adjusted in a future
cost statement. We continue to recommend that IHS work with CMS to resolve the $1,992,466
for unsupported salaries, fringe benefits, and related obligations reported in the FY 2005 cost
statement. In addition, signed time estimates do not provide sufficient support.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov.
Please refer to report number A-09-07-00086 in all correspondence.


Attachment

cc:
Charlene Frizzera
Acting Administrator
Centers for Medicare & Medicaid Services
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




AUDIT OF THE INDIAN HEALTH SERVICE
 FISCAL YEAR 2005 COST STATEMENT
   FOR THE PHOENIX AREA OFFICE




                         Daniel R. Levinson
                          Inspector General

                            March 2010
                           A-09-07-00086
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Indian Health Service (IHS), an agency in the U.S. Department of Health and Human
Services, delivers clinical and preventive health services to American Indians and Alaska
Natives. IHS provides care in more than 600 health care facilities, including hospitals and
outpatient clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal
organization. IHS Headquarters (Headquarters) has overall responsibility for IHS programs, and
12 area offices located throughout the United States ensure that individual areas’ health care
needs are met.

Section 1880 of the Social Security Act (the Act) authorizes Medicare reimbursement to IHS
hospitals and skilled nursing facilities. Section 1911 of the Act authorizes Medicaid
reimbursement to all IHS providers for covered services. IHS providers use all-inclusive
reimbursement rates to bill for certain Medicare and Medicaid services provided in IHS and
tribal facilities. IHS develops these rates annually using financial and patient data from IHS and
certain tribal hospitals. The financial data are obtained from the hospitals’ Medicare cost reports,
and the patient data are obtained from IHS’s patient workload systems.

An IHS contractor prepares separate Medicare cost statements for Headquarters and most of the
area offices. (IHS cost statements use obligations rather than costs because, according to IHS
officials, IHS’s accounting system was not designed to accumulate costs.) The Headquarters and
area-office cost statements identify the portion of obligations from Headquarters and the area
offices that is allowable under Medicare and allocable to IHS providers. Allowable
Headquarters obligations are allocated to each area office. These obligations, combined with the
area offices’ own obligations, are then allocated among all IHS providers. Medicare cost
statements are subject to the provisions of 42 CFR part 413 and the Medicare “Provider
Reimbursement Manual,” parts I and II, which establish standards for, among other things, the
allowability and allocability of costs.

IHS included $39.1 million of obligations in its fiscal year (FY) 2005 cost statement for the
Phoenix area office. After IHS adjusted certain obligations, this amount decreased to
$33.9 million. IHS identified $8.1 million of the $33.9 million as unallowable for Medicare
reimbursement. We reviewed the remaining $25.8 million of obligations that IHS reported in the
cost statement as allocable to IHS providers.

OBJECTIVE

Our objective was to determine whether the obligations reported in the FY 2005 cost statement
for the Phoenix area office were allowable under Medicare requirements.




                                                 i
SUMMARY OF FINDINGS

The $25,773,354 of obligations reported in the FY 2005 cost statement for the Phoenix area
office included $65,739 for unallowable depreciation and $1,992,466 for unsupported salaries,
fringe benefits, and related obligations on which we could not express an opinion.

       Contrary to Federal requirements, IHS overstated equipment depreciation by $65,739 in
        the FY 2005 cost statement. Specifically, IHS erroneously reported depreciation for
        FY 2004 instead of FY 2005 and for some items that were already fully depreciated. IHS
        did not have adequate policies and procedures to determine when items were fully
        depreciated.

       Contrary to Federal requirements, IHS did not properly support its allocation of
        $1,992,466 for salaries, fringe benefits, and related obligations in the FY 2005 cost
        statement. Specifically, IHS used unverifiable estimates to allocate obligations related to
        employees who worked on multiple activities. IHS did not have policies and procedures
        to ensure that its estimates were supported with cost information that was current,
        accurate, and in sufficient detail. Because IHS had no verifiable support for its estimates,
        we were unable to express an opinion on the $1,992,466.

Based on our review of judgmentally selected obligations totaling $5,642,418 and our limited
review of IHS’s internal controls, we concluded that the remaining $23,715,149 reported in the
cost statement was allowable.

RECOMMENDATIONS

We recommend that IHS:

       adjust its next cost statement for the Phoenix area office for $65,739 of unallowable
        depreciation that was reported in the FY 2005 cost statement;

       review the Phoenix area office’s cost statements before and after FY 2005 and adjust its
        next cost statement for unallowable depreciation that was reported;

       strengthen its policies and procedures to ensure that depreciation is not reported for items
        that are fully depreciated;

       work with the Centers for Medicare & Medicaid Services (CMS) to determine how much
        of the $1,992,466 for salaries, fringe benefits, and related obligations reported in the
        Phoenix area office’s FY 2005 cost statement was allowable and adjust its next cost
        statement for obligations that are determined to be unallowable; and

       develop and implement policies and procedures to ensure that estimates used to allocate
        obligations in cost statements are supported with cost information that is current,
        accurate, and in sufficient detail.



                                                 ii
INDIAN HEALTH SERVICE COMMENTS

In its comments on our draft report, IHS stated that it would adjust a future cost statement to
correct for the $65,739 of unallowable costs. In its comments on the second recommendation,
IHS referred to its comments on the first recommendation. In response to the third
recommendation, IHS described improvements that it was making to the reporting of equipment
depreciation.

Regarding the fourth recommendation, IHS stated that because 4 years had passed since the
period of the FY 2005 cost statement, IHS did not believe that further adjustment of the
obligations was warranted. Regarding the fifth recommendation, IHS stated that it would obtain
signed time estimates from this point forward to handle salary and benefit obligations that are
reclassified or adjusted. With the implementation of the Unified Financial Management System,
IHS is reviewing its policies and procedures to determine any necessary revisions. IHS’s
comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

In its response to our second recommendation, IHS did not agree that it would review cost
statements before and after FY 2005 to determine if it had claimed additional unallowable
depreciation costs. The intent of our second recommendation is to identify similar unallowable
costs in other years from IHS cost statements. If IHS claimed unallowable costs, those costs
should be adjusted in a future cost statement.

Regarding our fourth recommendation, we continue to recommend that IHS work with CMS to
resolve the $1,992,466 for unsupported salaries, fringe benefits, and related obligations reported
in the FY 2005 cost statement.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                           Page

INTRODUCTION.............................................................................................................1

          BACKGROUND ....................................................................................................1
              Indian Health Service..................................................................................1
              Medicare and Medicaid Reimbursement ....................................................1
              Cost Statements for Headquarters and Area Offices ..................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................3
               Objective .....................................................................................................3
               Scope...........................................................................................................3
               Methodology ...............................................................................................3

FINDINGS AND RECOMMENDATIONS ...................................................................4

          OVERSTATED DEPRECIATION ........................................................................4

          ALLOCATIONS BASED ON UNVERIFIABLE ESTIMATES...........................5

          RECOMMENDATIONS........................................................................................6

          INDIAN HEALTH SERVICE COMMENTS ........................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE .............................................7

APPENDIX

          INDIAN HEALTH SERVICE COMMENTS




                                                                   iv
                                               INTRODUCTION

BACKGROUND

Indian Health Service

The Indian Health Service (IHS), an agency in the U.S. Department of Health and Human
Services, delivers clinical and preventive health services to American Indians and Alaska
Natives. IHS provides care in more than 600 health care facilities, including hospitals and
outpatient clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal
organization.

IHS Headquarters (Headquarters) has overall responsibility for IHS programs. Twelve area
offices located throughout the United States carry out the IHS mission by overseeing and
administering programs that are designed to address individual areas’ specific health care needs.
Each area office provides regional support services to health care providers (e.g., hospitals,
outpatient clinics, and community health centers) within its jurisdiction.

One of the twelve area offices is the Phoenix area office in Phoenix, Arizona. This area office
oversees the delivery of health care to approximately 140,000 Native Americans throughout
Arizona, Nevada, and Utah.

Medicare and Medicaid Reimbursement

IHS health care facilities receive Federal reimbursement for certain Medicare and Medicaid
services. At the Federal level, the Centers for Medicare & Medicaid Services (CMS) administers
the Medicare and Medicaid programs. The Indian Health Care Improvement Act (IHCIA) of
1976 (P.L. No. 94-437) added section 1880 of the Social Security Act (the Act) to authorize
reimbursement to IHS hospitals and skilled nursing facilities for services provided to Medicare-
eligible individuals. Further, section 432 of the Medicare, Medicaid, and SCHIP [State
Children’s Health Insurance Program 1 ] Benefits Improvement and Protection Act of 2000
(P.L. No. 106-554) and section 630 of the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003 (P.L. No. 108-173) amended section 1880 of the Act to authorize
payments for Medicare Part B services provided in certain IHS hospitals. The IHCIA also added
section 1911 of the Act to authorize Medicaid reimbursement to all IHS providers for covered
services.

IHS providers use all-inclusive reimbursement rates to bill for certain Medicare and Medicaid
services provided in IHS and tribal facilities. IHS develops these rates annually using financial
and patient data from IHS and certain tribal hospitals. The financial data are obtained from the
hospitals’ Medicare cost reports, and the patient data are obtained from IHS’s patient workload
systems.




1
    The program was renamed the Children’s Health Insurance Program as of February 4, 2009.


                                                         1
IHS calculates one set of reimbursement rates for the lower 48 States and one set of rates for
Alaska: 2

           Medicare outpatient per-visit rate,

           Medicare Part B inpatient ancillary per diem rate,

           inpatient hospital per diem rate (excluding physician/practitioner services), and

           outpatient per-visit rate (excluding Medicare). 3

Cost Statements for Headquarters and Area Offices

IHS contracts with Eighteen Nineteen Group, Inc. (Eighteen Nineteen), to prepare separate cost
statements for Headquarters and 10 of the 12 area offices, including the Phoenix area office. 4
IHS cost statements use obligations rather than costs because, according to IHS officials, IHS’s
accounting system was not designed to accumulate costs. CMS and IHS agreed that IHS could
use obligations instead of costs when preparing its cost statements.

The Headquarters and area-office cost statements identify the portion of obligations from
Headquarters and the area offices that is allowable under Medicare and allocable to IHS
providers. Allowable Headquarters obligations are allocated to the 12 area offices. These
obligations, combined with the area offices’ own obligations, are then allocated among all IHS
providers. Headquarters and area office obligations that are allocated to IHS hospitals are
included in each hospital’s cost report. Errors in these cost reports can affect the calculation of
the all-inclusive reimbursement rates described above.

Medicare cost statements are subject to the provisions of 42 CFR part 413 and the Medicare
“Provider Reimbursement Manual” (the Manual), parts I and II, which establish standards for,
among other things, the allowability and allocability of costs.

IHS included $39.1 million of obligations in its cost statement for the Phoenix area office for
FY 2005 (October 1, 2004, through September 30, 2005). 5 After IHS adjusted certain obligations,
this amount decreased to $33.9 million. IHS identified $8.1 million of the $33.9 million as




2
 The all-inclusive reimbursement rates developed by IHS using the fiscal year (FY) 2005 Medicare cost reports were
finalized and used for reimbursement purposes in FY 2007.
3
 The inpatient hospital per diem and the outpatient per-visit rates are the encounter rates applicable to Medicaid
services.
4
 Cost statements are not prepared for the California and Portland area offices because the areas for which they are
responsible do not have any IHS hospitals.
5
    This amount does not include Headquarters obligations of $21.1 million that were allocated to Phoenix in FY 2005.


                                                           2
unallowable for Medicare reimbursement and allocated the remaining $25.8 million to IHS
providers in the Phoenix area and to other areas. 6

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the obligations reported in the FY 2005 cost statement
for the Phoenix area office were allowable under Medicare requirements.

Scope

We reviewed $25,773,354 of the obligations that IHS reported in its FY 2005 cost statement for
the Phoenix area office as allocable to IHS providers in the Phoenix area and to other areas. We
did not review Headquarters’ obligations of $21,120,894 that were allocated to the Phoenix area
office. We reviewed those obligations as part of our review of the Headquarters cost statement.

We did not perform a detailed review of IHS’s internal controls. We limited our review to
obtaining an understanding of IHS’s, including the Phoenix area office’s, and
Eighteen Nineteen’s policies and procedures related to the accounting, accumulation, and
reporting of obligations. We performed our fieldwork at the Phoenix area office in Phoenix,
Arizona.

Methodology

To accomplish our objective, we:

        reviewed applicable Federal laws, regulations, and guidance;

        reviewed the explanatory notes for the cost statement;

        reviewed IHS’s reclassifications and adjustments of obligations;

        reviewed a judgmental sample of salaries, fringe benefits, and related obligations,
         including supplies, travel, and training;

        reviewed the method that IHS used to allocate the Phoenix area office’s obligations to
         IHS providers in the Phoenix area and to other areas; and

        interviewed Phoenix area office and Eighteen Nineteen officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

6
 IHS allocated $1.6 million to the Navajo, California, and Tucson area offices and various health care facilities
outside the Phoenix area for functions that Phoenix performed on their behalf.


                                                          3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

The $25,773,354 of obligations reported in the FY 2005 cost statement for the Phoenix area
office included $65,739 for unallowable depreciation and $1,992,466 for unsupported salaries,
fringe benefits, and related obligations on which we could not express an opinion. Based on our
review of judgmentally selected obligations totaling $5,642,418 and our limited review of IHS’s
internal controls, we concluded that the remaining $23,715,149 reported in the cost statement
was allowable.

OVERSTATED DEPRECIATION

Federal regulations (42 CFR § 413.20) require that “providers maintain sufficient financial
records and statistical data for proper determination of costs” and that cost statements be
submitted “on an annual basis with reporting periods based on the provider’s accounting year.”
CMS reiterated these requirements in the Manual. The Manual, part I, section 2304, states that
cost information as developed by the provider must be current, accurate, and in sufficient detail
to support payments made for services provided to beneficiaries. In addition, part II, section
102, states: “For cost reporting purposes, Medicare requires submission of annual reports
covering a 12-month period of operations based upon the provider’s accounting year.”

Federal regulations (42 CFR § 413.134(a)) also state that depreciation on equipment used in the
provision of patient care is an allowable cost. Among other requirements, the depreciation must
be based on the historical cost of the asset and prorated over the estimated useful life of the asset.
Further, 42 CFR § 413.144(b) states that if an asset has become fully depreciated under
Medicare, further depreciation is not appropriate or allowable, even though the asset may
continue in use.

The Manual, part I, section 116, paragraph A, states that regardless of the method of depreciation
being used, an asset should not be depreciated below its salvage value. 7

IHS overstated equipment depreciation by $65,739 in the FY 2005 cost statement for the
Phoenix area office. Specifically, IHS erroneously reported depreciation for FY 2004 instead of
FY 2005 and for some items that were already fully depreciated:

        Contrary to the requirements at 42 CFR § 413.20 and in the Manual, IHS reported
         information from the incorrect accounting year in its FY 2005 cost statement.
         Specifically, IHS reported the FY 2004 depreciation of $159,501 instead of the FY 2005
         depreciation of $96,965. As a result, FY 2005 depreciation was overstated by $62,536.

        Contrary to Federal regulations and section 116, paragraph A, of the Manual, IHS
         reported $3,203 for depreciation on some equipment items that were fully depreciated.
7
 Salvage value is the estimated amount expected to be realized upon the sale or other disposition of the depreciable
asset when it is no longer useful to the provider.


                                                          4
            Consequently, the items were depreciated below their salvage value. 8 Rather than
            calculating a partial year’s depreciation for items that were purchased during the year,
            IHS calculated a full year’s depreciation in the first and last years of the items’ useful
            lives without regard to when the items were purchased. IHS reported the additional
            depreciation because it did not have adequate policies and procedures to determine when
            items were fully depreciated.

ALLOCATIONS BASED ON UNVERIFIABLE ESTIMATES

Federal regulations state that the cost principles were developed to ensure that costs are reported
according to actual use of services. The regulations (42 CFR § 413.5(a)) state: “[T]he share of
the total institutional cost that is borne by the [Medicare] program is related to the care furnished
beneficiaries so that no part of their cost would need to be borne by other patients. Conversely,
costs attributable to other patients of the institution are not to be borne by the program.”

Federal regulations (42 CFR § 413.5(b)) also explain that one objective of the principles of
reimbursement is “[t]hat there be a division of the allowable costs between the beneficiaries of
this program [Medicare] and the other patients of the provider that takes account of the actual use
of services by the beneficiaries of this program and that is fair to each provider individually.”

CMS reiterated this principle in section 2200.1 of part I of the Manual: “Principle of Cost
Apportionment.—Total allowable costs of a provider are apportioned between [Medicare]
program beneficiaries and other patients so that the share borne by the program is based upon
actual services received by program beneficiaries.”

Furthermore, Federal regulations (42 CFR § 413.24(a)) state: “Providers receiving payment on
the basis of reimbursable cost must provide adequate cost data. This must be based on their
financial and statistical records which must be capable of verification by qualified auditors.” In
addition, 42 CFR § 413.24(c) states: “The requirement of adequacy of data implies that the data
be accurate and in sufficient detail to accomplish the purposes for which it is intended.”

The Manual, part I, section 2304, states that cost information as developed by the provider must
be current, accurate, and in sufficient detail to support payments made for services provided to
beneficiaries.

Contrary to Federal regulations and the Manual, IHS did not properly support its allocation of
$1,992,466 for salaries, fringe benefits, and related obligations reported in the FY 2005 cost
statement. Specifically, IHS used unverifiable estimates to allocate obligations related to
employees who worked on multiple activities:

           IHS reported $295,994 for Office of Environmental Health (the office) employees who
            performed patient-related duties, including infection control and emergency response and
            preparedness. The director of the office estimated that his staff spent 26 percent of its
            time on Medicare-reimbursable activities. He stated that he based the estimates on
            narrative documentation, which included the employees’ activity reports and position
8
    IHS sets the salvage value for its equipment at zero.


                                                            5
        descriptions and the office’s annual activity report. We could not verify the estimates
        using the documentation that IHS provided.

       IHS reported $145,281 for a team of seven cardiology program employees who provided
        direct patient care in the areas served by the Phoenix, Tucson, and Navajo area offices.
        An administrative staff person estimated that approximately 16 percent of these
        employees’ salaries and fringe benefits represented activities related to “indirect” patient
        care, such as team scheduling and speaking engagements, and was reimbursable in the
        FY 2005 cost statement for the Phoenix area office. The cost statement included a
        spreadsheet showing employees’ percentages of time spent on direct and indirect patient
        care, but IHS could not provide support for the percentages included on the spreadsheet.
        We could not verify the estimates using the documentation that IHS provided.

       IHS reported $1,551,191 for financial management activities of Phoenix area office
        employees, who provided administrative support for two other area offices: Tucson and
        California. A financial management officer estimated that approximately 68 percent of
        the salaries, fringe benefits, and related obligations (such as training and travel) for these
        employees represented activities performed at the Phoenix area office. She based the
        estimates on spreadsheet information developed in prior years, but IHS could not provide
        support for the information included on the spreadsheet. We could not verify the
        estimates using the documentation that IHS provided.

These deficiencies occurred because IHS did not have policies and procedures to ensure that its
estimates were supported with cost information that was current, accurate, and in sufficient
detail. Because IHS had no verifiable support for its estimates, we were unable to express an
opinion on the $1,992,466.

RECOMMENDATIONS

We recommend that IHS:

       adjust its next cost statement for the Phoenix area office for $65,739 of unallowable
        depreciation that was reported in the FY 2005 cost statement;

       review the Phoenix area office’s cost statements before and after FY 2005 and adjust its
        next cost statement for unallowable depreciation that was reported;

       strengthen its policies and procedures to ensure that depreciation is not reported for items
        that are fully depreciated;

       work with CMS to determine how much of the $1,992,466 for salaries, fringe benefits,
        and related obligations reported in the Phoenix area office’s FY 2005 cost statement was
        allowable and adjust its next cost statement for obligations that are determined to be
        unallowable; and




                                                  6
       develop and implement policies and procedures to ensure that estimates used to allocate
        obligations in cost statements are supported with cost information that is current,
        accurate, and in sufficient detail.

INDIAN HEALTH SERVICE COMMENTS

In its comments on our draft report, IHS stated that it would adjust a future cost statement to
correct for the $65,739 of unallowable costs. In its comments on the second recommendation,
IHS referred to its comments on the first recommendation. In response to the third
recommendation, IHS described improvements that it was making to the reporting of equipment
depreciation.

Regarding the fourth recommendation, IHS stated that because 4 years had passed since the
period of the FY 2005 cost statement, IHS did not believe that further adjustment of the
obligations was warranted. Regarding the fifth recommendation, IHS stated that it would obtain
signed time estimates from this point forward to handle salary and benefit obligations that are
reclassified or adjusted. With the implementation of the Unified Financial Management System,
IHS is reviewing its policies and procedures to determine any necessary revisions. IHS’s
comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

In its response to our second recommendation, IHS did not agree that it would review cost
statements before and after FY 2005 to determine if it had claimed additional unallowable
depreciation costs. The intent of our second recommendation is to identify similar unallowable
costs in other years from IHS cost statements. If IHS claimed unallowable costs, those costs
should be adjusted in a future cost statement.

Regarding our fourth recommendation, we continue to recommend that IHS work with CMS to
resolve the $1,992,466 for unsupported salaries, fringe benefits, and related obligations reported
in the FY 2005 cost statement.




                                                 7
APPENDIX
                                                                                                           Page 1 of2


   APPENDIX: INDIAN HEALTH SERVICE COMMENTS


    DEPARTM ENT OF HEALTH & HUMAN SE RVICES 	                                Public Health   s......1clI

                                                                             Indian Heal !~ Service
                                         AUG 112t11J9                        Rockville MD 20852




TO: 	          Jnspe<:tor General

FROM: 	        Director

SUBJECT: 	     Comme nts by the Indian Health Service on the OIG D raft. Report "Audit of the
               Indian Health Service Fiscal Year 2005 Cost Statement for the Phoenix Area
               Office" (Report No. A-09-07-OOO86)

The purpose of this memorandum is 10 respond to your June 19 memorandum transmitting the
Office of Inspeelor General (O IG) draft report e ntitled, "Audit of the Indian Heahh Service
Fiscal Year 2005 Cost Statement for the Phoenix Area Office" (A-09-07-00086), I app«:ciate
the opportunity to address your recommendations and the following provides the Indian Health
Services' s (IHS) comments on the draft report.

IHS Res ponse to th e OIG Draft Recomm~ndation5

1. 	 Adjust itl next cost statement (or th e Phoe nb: Area Office for 565,739 o( unallowable
     depreciat ion that was reported in tbe FY 2005 cost statement.
    A correction will be made on a future report.

2. 	 Review the Pboenix Area Office's cost statements before an d after FY 2005 and adjust
     its next cnst statement (or un allowab le depreciation tbat was reported.

   See comment above.

3. 	 Strengthen its policies a nd IlroeedurCli to ensure that depreciation is not rep orted for
     items that are fully depreciated.


   The rns is currently working on a project to improve the reporting of equipment 

   depreciation. An additional review step will include looking for reclassifications or 

   adjustments that are the exact amount from one year to the next. This will prompt a 

   review/correction of a prior year amount that is inadvenentl y carried forward. The 

   improvements will ensure that items are not further depreciated once they beeome 

   full y depreciated. 

                                                                                                  Page 2 of2




Page 2 - Inspector General


4. 	 Work with Centers for Medica re aDd Medicaid Services to determine how much of the
     SI,992,466 for salaries, frin ge benefits, and related obligations reported in the Phoenix
     Area Office's FY 200S cost statement was allowable lind adjust its out cosl statement
     for Bbligations that II r c determined 10 ~ unallowa ble.

   This finding relates to the lack of signed time estimates rather than an actual dispute over the
   treatme nt of costs. Since it is now 4 years pas! the period orthis cost report and the treatment
   of these salary costs was generall y conservative to the Medicare p rogram, the IHS docs not
   believe that further adjustment oflhe FY 2005 costs is warranted. Instead, signed time
   estimates will be obtained from this point forward fOf handling salary and benefit costs that
   are reclassified or adjusted based 011 the amOlUlt of time spell!.

5. 	 Oevelop a nd implemenl policies and procedures to ensure tb a t estimates used to
     allocate obligations in cost statements are s upported with cost inrormatiOIl th at is
     curreDt, accurate, and in sufficient detail.

   See comment above. Add itionally, due to implementation of the Unified Financial
   Management System, the IHS is currently reviewing its policies and procedures in order 10
   detennine any necessary revisions.

Thank you for allowing the IHS to provide comments on the OIG's droft repon.




                                         Yvette Roubideaux, M.D., M .P.H.
